             u.s. Small Business Administration    Memorandum
             Office Inspector General


    To: 	    Darryl Hairston                                        Date:   December 15, 2009
             Associate Administrator for Management and
             Administration
             Ilsl Original Signedl
  From: 	    Debra S. Ritt
             Assistant Inspector General for Auditing

Subject: 	   Enhancements Needed in Processing Payroll Funded Under the Recovery Act
             Report No. ROM 10-07

             Attached is the Management Letter issued by KPMG LLP that identifies a
             matter that came to their attention during the audit ofSBA's FY 2009
             fmancial statements. This objective was to detennin~ whether SBA's
             internal control over payroll processes provides complete and accurate
             reporting of Recovery Act funds.

             KPMG addressed recommendations to the Chief Human Capital Officer.
             We provided a draft ofKPMG's report to this official or his designee, who
             concurred with the finding. The official or designee agreed to implement
             the recommendations or has already taken action to address the underlying
             conditions.

             Should you or your staff have any questions, please contact Jeffrey R. Brindle,
             Director, Infonnation Technology and Financial Management Group at (202)
             205- [FOIA ex. 2]

             Cc: Jonathan 1. Carver
                              KPMG LLP 

                              2001 M Street, NW 

                              Washington, DC 20036 





                     AMERICAN RECOVERY AND REINVESTMENT ACT
                               MANAGEMENT LETTER



November 13,2009


CONFIDENTIAL

Office of the Inspector General,
U.S. Small Business Administration, and
Administrator of the SBA:


We were engaged by the Office of Inspector General (OIG) to perform supplemental audit services for the
purpose of testing certain transactions and system enhancements related to the u.S. Small Business
Administration's (SBA) implementation of the American Recovery and Reinvestment Act of 2009
(ARRA). The procedures were performed as part of an expanded scope of our fiscal year 2009 audit of
SBA's consolidated financial statements. In planning and performing our audit procedures related to
SBA's implementation of ARRA, we considered internal control aspects related to the implementation
and operation of the ARRA programs that were in place as of September 30, 2009. However, our audit
services under this contract modification did not include issuing an opinion on the effectiveness of the
controls, and accordingly, we do not express our opinion on such controls.

During our audit, we noted a matter involving internal control concerning enhancements needed in the
processing of ARRA payroll. The comments and resulting recommendations, presented in the Exhibit,
have been discussed with the appropriate members of management and are intended to improve internal
control or result in other operating efficiencies.

We would be pleased to discuss these comments and resulting recommendations with you at any time.

This report is intended solely for the information and use of the OIG, SBA management, and others
within the organization and is not intended to be, and should not be, used by anyone other than these
specified parties.




                                          g   U -; hm;':-';;      l;J.:~;!!i;~:· ~'_;;1~;;E;",:~t~,;l. ~"       i:!';: C_' ~"
                                               j{!7'1J~~ i-'"i:.e~i-';::I,i../;,~~.   Ii ':..-..,.!!1 ... ,:;~' ... ;/';;--rl~~-.
                                                                                                  Exhibit
                            u.s. SMALL BUSINESS ADMINISTRATION 

                               American Recovery and Reinvestment Act 

                                   Management Letter Comments 

                                             FY2009 



ENHANCEMENTS NEEDED IN THE PROCESSING OFARRA PAYROLL

CONDITION:
During our testwork over payroll expense funded by the American Recovery and Reinvestment Act of
2009 CARRA) for the period JWle 1, 2009 to July 31, 2009, we noted the following exceptions:
Of fifty-three (53) ARRA payroll sample items reviewed, one (1) employee was erroneously compensated
based on a GS 12 Step 2 salary rather than a GS 13 Step 1 salary for pay periods 10 through 13 (May 10,
2009 through July 4, 2009).
Of fifty-three (53) ARRA payroll samples reviewed, for one (1) sample item from the Office of Capital
Access (OCA), the STAR Time and Attendance (T&A) Report was not signed by the employee's
timekeeper and supervisor.
Of the nine (9) sample items for which the Office of Personnel Management (OPM) Form 71, Request for
Leave or Approved Absence was applicable, one (1) sample item from the Office of Inspector General
(OIG) was missing a supervisor signature.

CRITERIA:
The Government Accountability Office's Standards for Internal Control in the Federal Government,
state, "Transactions should be promptly recorded to maintain their relevance and value to management in
controlling operations and making decisions. This applies to the entire process or life cycle of a
transaction or event from the initiation and authorization through its final classification in summary
records. In addition, control activities help to ensure that all transactions are completely and accurately
recorded. "
Standard Operating Procedure 36 00, Attendance and Leave, states, "supervisors are responsible for
ensuring that all employees under their supervision have worked the proper number of hours for the work
schedule selected before signing individual Time and Attendance Reports." The SBA Manager's Toolkit
states, "Ensure all STAR T&A Reports are signed by the timekeeper, employee, and supervisor."
The SBA Manager's Toolkit Time and Attendance Responsibilities, states, "Ensure OPM Fonn 71
(Request for Leave or Approved Absence) is completed and approved in a timely manner. Do not make
handwritten changes to the OPM Form 71 without initialing or signing, which indicates approval by
management. Ensure timekeepers do not transmit T&A before all the proper signatures are obtained."

CAUSE:
With regard to the compensation paid in error, the Office of Human Capital Management was apprised of
a National Finance Center system malfunction that caused the error. However, this malfunction was not
comtnWlicated timely to the Office of Financial Administration (OFA) in order to avoid the payroll
processing error.
The matters regarding completion of the STAR T&A Report and the OPM Form71 were caused by
employee oversight.
                                                                                                 Exhibit
                           U.S. SMALL BUSINESS ADMINISTRATION 

                              American Recovery and Reinvestment Act 

                                  Management Letter Comments 

                                            FY 2009 



EFFECT:
The error noted above resulted in a $1,957 understatement of ARRA payroll expenses as of September
30,2009.

RECOMMENDATIONS:
We recommend the Chief Human Capital Officer:

1) 	 Continue to process personnel actions in a timely manner and expeditiously monitor system reports to
     ensure that employees are compensated based on approved administrative actions.
2) 	 Continue to work with the OIG and Office of Capital Access management to reinforce the importance
     of approving the OPM Form 71 and STAR T&A Report through periodic training.

MANAGEMENT RESPONSE

SBA management concurs with the finding and recommendations.




                                                                                                       2
